ORIGINA
Supreme Court, U.S.
FILED

O O—

7C

SEP 2 9 2020

/

A

OFFICE OF THE CLERK

USCA4 No. 19-2150

IN THE SUPREME COURT OF THE UNITED STATES

WARREN D. TISDALE
Petitioner

v.

CASA PARTNERS V.L.P. THE PARK AT WINTERSET; PINNACLE PROPERTY
MANAGEMENT SERVICES L.L.C.; FAIR COLLECTIONS AND OUTSOURCING, INC.
Respondents

PETITION FOR WRIT OF CERTIORARI TO THE U.S. DISTRICT COURT OF MARYLAND
(BALTIMORE DIVISION)

fMHi

Warren D. Tisdale
9705 Mill Center Drive
Apt. 404
Owings Mills, Maryland 21117
Petitioner - Pro-Se

RECEIVED
JUN 2 - 2021

OFFICE 0,F THE CLERK
SUPREME COURT, U.S.

I
i

QUESTIONS PRESENTED

I. Whether Petitioner’s Sixth Amendment right to a jury trial was violated when the U.S.
District Court Judge referred the case to a Magistrate for settlement instead of proceeding with
Petitioner’s requested jury trial.
II. Whether Petitioner’s Right to Discovery was violated when Respondent(s) refused to
answer Petitioner’s Interrogatories including question(s) pertaining to a crucial witness who can
corroborate the fact that Petitioner owed no money to Respondent 1.

TABLE OF CONTENTS

QUESTIONS PRESENTED

1

OPINIONS BELOW

ii

JURISDICTION

iii

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE PETITION (CONCLUSION)

4

OPINIONS BELOW

United States Court of Appeals at Appendix C (Unpublished)
United States District Court at Appendix A

11

JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. §1254 (1)

*»>

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Colgrove v. Battin, 413 U.S. 149 (1973)

4

Baltimore & Carolina Line, Inc. v. Redman, 295 U.S. 654 (1935)

4

STATUTES AND RULES
28 U.S.C. § 1254(1)

iii

FRCP 12(a)(1)

2

FRCP 26(a)(b)(c)

3

OTHER
U.S. Const, amend. VI

4

U.S. Const, amend. VII

4

II. STATEMENT OF THE CASE
Mr. Tisdale, hereinafter Petitioner, a licensed General Contractor for Home Improvement, is
accused of owing C.A.S.A. aka Winterset Park Complex, hereinafter Respondent 1, a security
deposit, hereinafter debt, on an apartment which Petitioner denies owing. Respondent 1 hired Fair
Credit Outsourcing (FCO),hereinafter Respondent 2, to collect the debt. Respondent 2’s collection
efforts led to Petitioner’s otherwise excellent credit rating (785 credit score) being ruined with the
credit bureaus.
This matter began on May 13, 2015, when Petitioner informed Ms. Dawn Ward, the office
manager at the time, that he was not renewing his lease which ended May 12,2016. Ms. Ward told
Petitioner that he would get a renewal lease addendum which he received on May 16, 2015, and
returned on May 26,2015. Ms. Ward was aware when Petitioner’s lease ended because she signed
it. (see Exh. B-(l) and B-(2)). Prior to filing suit, Petitioner checked with the then current office
manager, a Mr. Mac, and discovered Ms. Ward no longer worked for Respondent 1. By the way, the
apartment into which Petitioner moved was owned by the same company that owned the apartment
from which Petitioner had moved out of. Therefore the deposit was simply transferred from one
apartment to the other apartment thereby cancelling the debt which gave rise to Petitioner’s cause of
action. Ms. Ward’s testimony is crucial to Petitioner’s case but her testimony appears to have been
overlooked.
On June 27, 2016, someone pretending to be Miss Ward sent Petitioner a letter saying he
owed money. The signature did not match with previous correspondence Petitioner had received
from Ms. Ward. When Petitioner inquired about the letter, a copy could not be found in the files and
nothing in the computer indicated Petitioner owed Respondent 1 any money. The office file on
1

Petitioner contained all good comments.
A closer inspection of Petitioner’s file showed letters with FCO’s (Respondent 2) stamp at
the bottom of all correspondence pertaining to Petitioner (see Exh. H(11) and H(12)). Petitioner, who
was receiving harassing phone calls from Respondent 2 early in the morning and late at night,
expected a “scam”. Petitioner researched FCO on the internet and discovered it was a company
using sharp business practices.
On October 26, 2017, Petitioner filed a civil lawsuit against Respondent 2 and afterward a
Motion with the federal district court judge, the Honorable George Levi Russell III under federal
Rule of Civil Procedure 12(a)(1). Next he filed a default judgement against all defendant’s for not
responding to the complaint. It took Respondent 2 until March 16, 2018, to locate Petitioner’s
complaint (see document 11 file date 3/26/2018 and Tisdale Exh (1). All the while Petitioner waits
and watches as his credit is being destroyed.
Petitioner received a letter dated June 4, 2018, instructing him that Judge Russell had
previously scheduled a telephonic hearing. The telephonic hearing was actually held on June 3,
2018. Judge Russell transferred the case to a Magistrate, over objection by Respondent’s counsel, to
speed up a hearing on Petitioner’s case. The Magistrate set up a settlement conference which never
occurred because Respondent 2 objected.
Petitioner filed a Motion to Compel Answers to his Interrogatories (see Exh. 2). Respondent
2 refused to give Petitioner important information which would better enable him to prepare for trial.
Petitioner sent a set of Interrogatories to Respondent 2 dated July 20, 2018, who finally responded
with Answers on 2 CDs.
Petitioner continued with his case and explained he had proof of no money owed and how
important his credit is to him because he is a Contractor with a small company. A representative of
2

FCO asked Petitioner to send him a copy of the proof and Petitioner complied. During this “back and
forth”, Respondent 2 continued to refuse to answer Petitioner’s Interrogatories.
Next, Petitioner filed a Motion with the Hon. George L. Russell trying to alert him that
Respondent 2 was in violation of Federal Rule 26(a)(b)(c) but no response. A settlement conference
was scheduled for November 7, 2018, but Respondent 2’s counsel failed to attend. Petitioner
dropped off his evidence, motions, answers to interrogatories and responses to CD’s, as well as
answers to requests made by Magistrate Gina L. Simms prior to the scheduled settlement conference.
It was Petitioner’s impression that Magistrate Simms would be handling all further proceedings and
it was made clear by the Hon. George L. Russell during the telephone conference call on June 3,
2018.
That Petitioner wants the Supreme Court, while considering his Writ, to look closely at email
between himself and pro bono attorney Kenneth Davies (see Exh. 4-(a) - 7). While Atty. Davies
was preparing for the settlement conference, he did a Damage Award Evaluation and calculated
Petitioner’s likely award could be between $50,000.00 and $300,000.00 (see Exh. 5-A). A Summary
Judgement was granted against Petitioner because Petitioner no longer had his evidence. The
evidence had been turned over to Magistrate’s clerks at federal court in Greenbelt, Maryland (see
Exh. B-(6) document 32) filed 7/24/2018. Also see Exh. G-(4) Document 54 dated 1/2/2019 filed
after Petitioner’s evidence came up missing. Petitioner filed multiple motions, including a Rule (11)
letter, while attempting to get a hearing in front of Judge Russell but to no avail. Petitioner noticed
an unsigned cover sheet was used by Judge Russell who rendered an unfavorable decision in
Petitioner’s case. This struck Petitioner as being out of the ordinary because civil cover sheets
require signatures. Judge Russell used an unsigned cover sheet during Petitioner’s quest to get a jury
trial.
3

That Petitioner is respectfully requesting the U.S. Supreme Court check into irregularities
such as why the U.S. District Court Judge never made any inquiries as to why the Respondents never
responded to Petitioner’s Complaint. Also Petitioner would like to know why Judge Russell denied
his jury trial request. Colgrove v. Battin, 413 U.S. 149 (1973) and Baltimore & Carolina Line, Inc. v.
Redman, 295 U.S. 654 (1935) In addition, why Judge Russell ruled against Petitioner based upon an
unsigned cover sheet which was not in Petitioner’s handwriting and was fraudulently placed into the
record. Petitioner cites Amendment VI & VII to U.S. Constitution. Then too, why would Petitioner’s
default judgement be reversed when an “employee of FCO”, instead of its registered agent
intercepted Petitioner’s Complaint. The employee is FCO’s agent therefore FCO is still at fault and
the default judgement should stand.
That Petitioner believed he would get a chance to hold oral argument and reveal the facts of
his case and the evidence of what he went through with the U.S. District Court and the Magistrate.
Petitioner is dyslexic but he can articulate in person. That is why he held out on giving all of his
information to the Appeals Court because previous information given to the Court had come up
missing. Petitioner believed he could correct the inaccuracies in his case and that it was like getting
a new trial. In any event, he wants this Honorable Court to grant his Petition for Writ of Certiorari in
order to correct the injustices Petitioner has incurred from the filing of his Complaint thru the U.S.
District Court below. Also, Petitioner is demanding compensatory and punitive damages from
Respondents 1 & 2 to make up for the contracts and customers lost while trying to restore his credit
score and convince the court system that he did not owe the Respondent(s) any money.
III. CONCLUSION
For the foregoing reasons, Petitioner Warren Tisdale respectfully requests that this Court
grant the Petition for Writ of Certiorari to review the Judgment of the U.S. District Court of
4

Maryland (Baltimore District) for illegalities and irregularities. Petitioner also demands $300,000.00
in compensatory and punitive damages.

warren Tisdale
9705 Mill Center Drive
Apt. 404
Owings Mills, Md 21117
(443) 224-8324
Petitioner-Pro Se

5

